MEMORANDUM FOR:               EMILY STOVER DeROCCO
                              Assistant Secretary for
                                Employment and Training


FROM:                         JOHN J. GETEK
                              Assistant Inspector General
                                for Audit


SUBJECT:                      Audit of Loring Job Corps Center
                              Final Audit Report Number 02-01-212-03-370


The attached subject final report is submitted for your resolution action. We request a response
to this report within 60 days.

You are responsible for transmitting a copy of this report to Training and Development
Corporation officials for resolution. However, we are providing a courtesy copy directly to
Charles G. Tetro, President and CEO of Training and Development Corporation.

If you have any questions concerning this report, please contact Richard H. Brooks, Regional
Inspector General for Audit, at (212) 337-2566.


Attachment


cc: Richard Trigg, Office of Job Corps
    Charles G. Tetro, Training and Development Corporation
              AUDIT OF
   LORING JOB CORPS CENTER
          FOR THE PERIOD
JULY 1, 1998 THROUGH JUNE 30, 1999




                   U.S. DEPARTMENT OF LABOR
                   OFFICE OF INSPECTOR GENERAL

                   REPORT NO.: 02-01-212-03-370
                   DATE: September 28, 2001
                                        TABLE OF CONTENTS


ACRONYMS .............................................................................................................................. i

EXECUTIVE SUMMARY ........................................................................................................ 1

INTRODUCTION

          BACKGROUND ............................................................................................................ 3

          AUDIT OBJECTIVE ..................................................................................................... 4

          AUDIT SCOPE AND METHODOLOGY ...................................................................... 4

ASSISTANT INSPECTOR GENERAL=S REPORT .................................................................. 5


FINDING AND RECOMMENDATIONS

          QUESTIONED COSTS - $691,220 ................................................................................ 7

          RECOMMENDATIONS............................................................................................... 11


EXHIBIT

          CONSOLIDATED SCHEDULE OF CENTER EXPENSES
          REPORTED AND QUESTIONED ............................................................................... 12


APPENDIX

          TDC RESPONSE TO DRAFT AUDIT REPORT ......................................................... 13
             ACRONYMS


ETA     Employment and Training Administration


G&A     General and Administrative


LDA     Loring Development Authority


LJCC    Loring Job Corps Center


OIG     Office of Inspector General


OMB     Office of Management and Budget


PRH     Policy and Requirements Handbook


TDC     Training and Development Corporation


USDOL   U. S. Department of Labor




                         -i-
                            EXECUTIVE SUMMARY
The U.S. Department of Labor (USDOL), Office of Inspector General (OIG) conducted an audit
of expenses claimed by Training and Development Corporation (TDC) to operate the Loring Job
Corps Center (LJCC) under contract number 1-JC-616-23 for the period July 1, 1998 through
June 30, 1999. The audit objective was to determine if the Consolidated Schedule of Center
Expenses was presented fairly in accordance with Federal requirements.

Audit Results

In our opinion, except for questioned costs, the Consolidated Schedule of Center Expenses
(Exhibit) presents fairly, the results of LJCC=s operations in accordance with applicable laws and
regulations for the period July 1, 1998 through June 30, 1999. For the audit period, TDC claimed
expenses of $6,760,594 for LJCC, of which we question $83,005 or 1 percent. Total questioned
costs in this report are $691,220. As discussed below, we question site utilization fees paid
during the period of the contract, May 1, 1996 through April 30, 2001.

                                                       7/1/98 -     Other      Total
                                                       6/30/99     Periods   Questioned
           Unallowable Site Utilization Fees            $22,511    $573,788   $596,299
           Excess Fringe Benefit Allocations             55,795            0     55,795
            Subtotals                                   $78,306     573,788   $652,094
           Applicable G&A (6%)                           $4,699     $34,427        $39,126

           Total Questioned Costs                       $83,005    $608,215       $691,220

       <        We question site utilization fees of $596,299 paid over the period of the contract,
                despite at the bidders= conference Job Corps’ instructions to TDC and other
                potential contractors to budget for site utilization fees that would be charged by
                the Loring Development Authority (LDA) for municipal services. Site utilization
                fees are not allowable because they are not based on the value of services received,
                but are property taxes which LJCC, as Federal property, was exempt from paying.


       <        We question $55,795 of fringe benefits allocated to LJCC. TDC did not have
                controls in place to reconcile estimated fringe benefits to actual costs and detect
                errors, such as including accrued vacation which is not allowable. We calculated
                fringe benefits using actual fringe benefits and salaries for the audit period.

       <        We also question $39,126 in applicable general and administrative expenses
                (G&A) associated with the above questioned costs.



                                                 -1-
Recommendations

We recommend that the Assistant Secretary for Employment and Training recover question costs
of $691,220 and ensure that TDC:

       <       discontinues paying site utilization fees based on square footage rather than the
               value of actual services received;

       <       establishes sufficient controls to provide for consistent application of allocation
               methodology; and

       <       monitors allocation control accounts to reconcile estimated fringe benefits to
               actual costs and detect allocation errors.

TDC Response

The Vice President for Finance of TDC responded to our draft report on August 30, 2001. He
disagreed with our finding related to site utilization fees and concurred with questioned fringe
benefits. The response has been incorporated in the report with our comments and is also
included in its entirety as an Appendix.




                                                 -2-
                                INTRODUCTION

                      Job Corps was established in 1964 and is presently authorized under Title I,
BACKGROUND Subtitle C of the Workforce Investment Act of 1998. The overall purpose of
                      the program is to provide economically disadvantaged youths aged 16 to 24
with the opportunity to become more responsible, employable citizens. With annual funding over
$1 billion, Job Corps is the largest Federal youth employment and training program. Job Corps
provides total support for participants including basic education and vocational classes; dental,
medical and eye care; social skills training; meals; recreational activities; counseling; student
leadership activities; and job placement services.

The Employment and Training Administration (ETA), awarded contract number 1-JC-616-23 to
TDC to operate LJCC for the period May 1, 1996 through April 30, 2001. The total contract
award was $33,580,788.

TDC is a not-for-profit corporation with headquarters in Bucksport, Maine. During the audit
period, TDC primarily operated USDOL employment and training programs for adults, youth,
dislocated workers, and migrants and seasonal farmworkers. Under contracts with USDOL, TDC
operated two Job Corps centers in Maine which accounted for $13 million (68 percent) of TDC=s
$19 million of revenue for the period.

LJCC is located on the former Loring Air Force Base in Maine. When the Air Force base closed
in 1994, the Defense Department deeded 47 acres and 11 buildings to USDOL to establish a Job
Corps Center. The Defense Department also conveyed 3,600 acres to the LDA which was
responsible for management of the former base, currently known as the Loring Commerce Center.
 LDA is public municipal corporation created by the State of Maine. It provides municipal
services including water and wastewater treatment, fire and emergency services, police protection
and general roadway maintenance.

LDA supports its efforts through Federal and state funding, water and sewer fees, and site
utilization fees. Site utilization fees were assessed annually on all Loring Commerce Center
occupants at a rate of $.50 per square foot of facility space.




                                               -3-
                The objective was to determine if the Consolidated Schedule of Center
AUDIT OBJECTIVE Operation Expenses reported by TDC for LJCC was presented fairly in
                accordance with Federal requirements.


                               We audited expenses of $6,760,594 claimed under contract number
AUDIT SCOPE AND                1-JC-616-23 for the period July 1, 1998 through June 30, 1999.
METHODOLOGY                    We expanded the audit of site utilization fees to include the entire
                               contract period, May 1, 1996 through April 30, 2001. We obtained
                               an understanding of TDC=s internal controls through inquires with
appropriate personnel, inspection of relevant documentation, and observation of operations. The
nature and extent of our testing were based on the risk assessment.

We examined center operation expenses, public vouchers, general ledgers and supporting
documentation including vouchers and invoices. We used judgmental sampling techniques to test
individual account transactions. We sampled $1,620,274 or 24 percent of reported expenses. We
did not audit performance measurements of LJCC.

The audit was performed using criteria we considered relevant in evaluating the reasonableness,
allowability and allocability of claimed expenses. Criteria included Title 20 of the Code of Federal
Regulations, Circular A-122 from the Office of Management and Budget (OMB), and the Job
Corps Policy and Requirements Handbook (PRH). Also, other requirements in the contract were
used as criteria in evaluating the allowability of claimed expenses.

We conducted our audit in accordance with generally accepted auditing standards and standards
applicable to financial statements contained in Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted fieldwork from January 23, 2001 to
February 9, 2001, at LJCC located in Limestone, Maine. We held an exit conference with TDC
on August 8, 2001.




                                                -4-
Emily Stover DeRocco
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210


                     ASSISTANT INSPECTOR GENERAL==S REPORT

We audited the accompanying Consolidated Schedule of Center Expenses (Exhibit) for the period
July 1, 1998 through June 30, 1999, under USDOL contract number 1-JC-616-23. Expenses
claimed are the responsibility of TDC management. Our responsibility is to express an opinion on
the reported expenses based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. These
standards require that we plan and perform the audit to obtain reasonable assurance about
whether reported expenses are free of material misstatements. An audit includes examining, on a
test basis, evidence supporting the reported expenses. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall presentation of the reported expenses. We believe our audit provides a reasonable
basis for our opinion.

The Consolidated Schedule of Center Expenses was prepared in conformity with accounting
practices prescribed by the Job Corps Policy and Requirements Handbook, Chapter 9, Financial
Management, which is a comprehensive basis of accounting other than generally accepted
accounting principles. Allowable costs are established by Federal regulations.

Opinion on Financial Statement

As discussed in the Finding and Recommendations section, unallowable site utilization fees, and
excessive fringe benefit resulted in questioned costs of $83,005 or 1 percent of reported expenses.
 ETA is responsible for resolving these questioned costs. The total effect of ETA=s determination
cannot be estimated at this time.

In our opinion, except for the matter discussed in the preceding paragraph, the Consolidated
Schedule of Center Expenses presents fairly, in all material respects, the results of LJCC=s
operations in accordance with applicable laws and regulations for the period July 1, 1998 through
June 30, 1999.




                                                -5-
Report on Internal Control

In planning and performing our audit, we considered TDC=s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our opinion
on reported expenses and not to provide assurances on the internal control over financial
reporting. However, we noted certain matters involving the internal control over financial
reporting and its operation that we consider to be reportable conditions. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgement, could adversely
affect TDC=s ability to record, process, summarize, and report financial data consistent with the
assertions of management in the financial statements. Reportable conditions are described in the
Finding and Recommendations section of this report.

A material weakness is a condition in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level of risk that misstatements in amounts
that would be material in relation to the financial statements being audited may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions. Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be reportable
conditions and, accordingly, would not necessarily disclose all reportable conditions that are also
considered to be material weaknesses. However, we believe that none of the reportable
conditions described in the Finding and Recommendations section of this report are material
weaknesses.

Report on Compliance with Laws and Regulations

Compliance with laws, regulations, and grant agreement provisions is the responsibility of TDC.
As part of obtaining reasonable assurance about whether reported expenses are free of material
misstatement, we performed tests of TDC=s compliance with certain provisions of laws,
regulations, and the contract. However, our objective was not to provide an opinion on overall
compliance with such provisions. Accordingly, we do not express such an opinion. The results of
our tests disclosed an instance of noncompliance that is required to be reported under
Government Auditing Standards and which is described in the Finding and Recommendations
section of this report.

This report is intended solely for the information and use of TDC and ETA, and is not intended to
be and should not be used by anyone other than these specified parties.



John J. Getek
Assistant Inspector General
  for Audit

February 9, 2001


                                                -6-
                FINDINGS AND RECOMMENDATIONS
QUESTIONED COSTS - $691,220

Overall, expenses claimed by TDC were reasonable, allocable and allowable. For the audit
period, TDC claimed expenses of $6,760,594 of which we question $83,005 or 1 percent. Total
questioned costs in this report are $691,220. We question site utilization fees that were paid
throughout the LJCC contract.


                                                              7/1/98 -        Other     Total
                                                              6/30/99       Periods 1 Questioned
          Unallowable Site Utilization Fees                    $22,511       $573,788  $596,299
          Excess Fringe Benefit Allocations                     55,795               0    55,795
           Subtotals                                           $78,306        573,788  $652,094
          Applicable G&A (6%)                                    $4,699        $34,427         $39,126

          Total Questioned Costs                               $83,005       $608,215         $691,220


                        TDC paid $596,299 in site utilization fees which were in essence property
 Site Utilization Fees taxes. Despite Job Corps’ instructions at the bidders= conference to TDC
                        and other potential contractors to include site utilization fees in their
                        budget proposals, the purpose of which was to cover municipal services
charged by LDA, we believe these fees were property taxes. These fees were paid over the
duration of the LJCC contract and are unallowable under Federal law and Comptroller General
decisions because they are not based on the value of services actually received, but are property
taxes which LJCC, as a Federal property, was exempt from paying.

Site utilization fees of $135,001 were paid annually by TDC to LDA for municipal services.
LJCC is owned by USDOL and is exempt from property taxes under specific statutory
prohibitions. The prohibition was found in JTPA, section 437(c) and is now in the Workforce
Investment Act, section 158(d), which states:

         . . . Such an operator or service provider shall not be liable to any State or subdivision of
         a state to collect or pay any sales, excise, use, or similar tax imposed on the sale to or
         use by such operator or service provider of any property, service, or other item in
         connection with operation of or provision of services to a Job Corps center.




1 Represents the periods April 1, 1996 to June 30, 1998 and July 1, 1999 to March 31, 2001.

                                                        -7-
LDA=s method of assessing site utilization fees on a square footage basis is equivalent to a tax
based upon the value of property. GAO=s Principles of Federal Appropriations Law, Chapter 4,
Section C, Part 15c, states in part:

       . . . Any assessment which is . . . computed on a square footage basis, is not payable on
       the grounds that it is a tax . . . . The method of computation is the primary means of
       determining whether the charge represents the fair value of service received . . . only
       when it is clearly shown that the specified method of computation is based purely on the
       value of the particular services rendered to the government, may any payment be
       made. . . .

While Federal courts and the Comptroller General have upheld that a municipality may be
compensated on a quantum meruit basis for the fair and reasonable value of the services actually
received by the United States, LDA did not provide us with detailed documentation to establish
the fair value of services rendered.

TDC Response

Training and Development Corporation disagrees with our finding. It believes that our assertion
that the site utilization fees are taxes is incorrect when all of the relevant legal and regulatory
provisions are considered:

       As a further consideration as to the legality of the municipal services fee, we note that the
       entire premise of the finding in your report rests in excerpts taken from the GAO’s
       Principles of Federal Appropriations Law. No assertion is made that this text carries the
       force of law and regulation. If it does not, then there is no basis for the assertion that the
       fee, which is allocated on a per-square-foot basis, is a tax, when all other facts in the
       matter argue to the contrary. It is, in fact, a requirement (of OMB Circulars A-87 and
       A-110) for organizations receiving federal funds to allocate costs to benefiting objectives
       using the allocation base that is most appropriate for the type of cost being allocated.
       Viewed as a cost allocation, the municipal fee is most appropriately allocated on a pre-
       square-foot basis, as the LDA has done.

       It is worthy of note that the excerpt from the Principles of Federal Appropriations Law
       refers only to the manner by which the charge is assessed, and not the allowability of the
       underlying cost. This leads to the conclusion that if the LDA had chosen to allocate
       municipal costs on a less appropriate basis than that of square footage, the cost would
       have been allowable.




                                                -8-
OIG Comment

GAO=s Principles of Appropriations Law are a compilation of judicial decisions and Comptroller
General decisions. Under various federal statutes, the Comptroller General does have the
authority to settle all claims by and against the government and to review the disbursement of
federal funds. The Comptroller General decisions, as well as various judicial decisions clearly
draw the distinction between fees based upon square footage or similar measurements, which are
taxes, and fees based upon the value of actual services received.

Moreover, in this case, there are specific statutory provisions in JTPA and WIA which prohibit
the payment of such taxes. As a result, our finding remains unchanged.

                                 Excess fringe benefits of $55,795 were allocated to LJCC. TDC
 Excess Fringe Benefit           did not have controls in place to reconcile estimated fringe
 Allocations                     benefits to actual costs and detect errors, such as including
                                 accrued vacation which is not chargeable to Job Corps. We
                                 calculated fringe benefits using total fringe benefits and salaries
for the audit period, and questioned $55,795 of fringe benefits.

OMB=s Circular No. A-122, Costs Principles for Nonprofit Organizations, Attachment A, Section
A, Part 2, states to be allowable, costs must be accorded consistent treatment and be adequately
documented. Part 4 states that a cost is allocable to a particular cost objective in accordance with
the relative benefit received.

TDC=s policy is to allocate fringe benefits monthly based on payroll distribution. TDC used
different allocation methods to allocate actual fringe benefits by payroll distributions. In its
response, TDC noted that it allocated fringe benefits costs to Job Corps and other programs by
applying either a predetermined fixed percentage or the actual fringe benefit rate to salaries.

However, TDC did not have controls in place to reconcile estimated fringe benefits to actual costs
and detect errors. We examined the fringe benefit allocations for May and June 1999, and found
the following:

       <       In May, TDC allocated fringe benefits using a predetermined fixed rate (25 percent
               for Job Corps and 28 percent for non-Job Corps programs and activities) which
               was set by the finance department based on an estimate of what the rate would be.
                The resulting allocations exceeded actual costs by $80,774 for the month.

       <       In June, TDC allocated fringe benefits using the same rate (26 percent) for Job
               Corps as for non-Job Corps programs and activities. TDC did not exclude accrued
               vacation of $19,059 in determining the Job Corps rate and, as a result,
               inappropriately allocated accrued vacation to LJCC. PRH, Chapter 9, Appendix
               901, Section D-5, requires: AEarned but unpaid leave will not be accrued,


                                                 -9-
               reported as expense nor vouchered.@

As a result, Job Corps was charged more than its fair share of fringe benefit costs while other
governmental programs were charged less than their fair share and TDC=s non-governmental
activities ended up having a negative fringe benefits. We calculated fringe benefits for the audit
period using actual total fringe benefits and salaries for the year. We determined LJCC was
overcharged $55,795 in fringe benefits and $3,348 in applicable G&A, as shown below.


                                                              Questioned
                          Personnel Expense Categories          Costs
                          Education                                $7,094
                          Vocational                                 8,756
                          Social Skills                            19,918
                          Support Service                            5,367
                          Administration                             8,531
                          Facility Maintenance                       2,559
                          Security                                   3,570
                         Subtotal                                 $55,795
                         Applicable G&A at 6 percent               $3,348
                         Total Questioned Costs                   $59,143


TDC Response

TDC agrees with our finding, but does not fully agree with the explanation. TDC indicated it
reduced fringe benefits by $55,795 along with the corresponding general and administrative
expenses to the contract on the ETA 2110 report for April 2001.

OIG Comment

TDC did not include documentation in its response of actions taken. As a result, this finding
remains unchanged.


                        We recommend that the Assistant Secretary for Employment and Training
 Recommendations        recover question costs of $691,220 and ensure that TDC:


                                                 -10-
<   discontinues paying site utilization fees based on square footage rather than the
    value of actual services received;

<   establishes sufficient controls to provide for consistent application of allocation
    methodology; and

<   monitors allocation control accounts to reconcile estimated fringe benefits to
    actual costs and detect allocation errors.




                                     -11-
                                                                                                            EXHIBIT
                                        Loring Job Corps Center
                                Consolidated Schedule of Center Expenses
                                       Reported, and Questioned
                                      July 1, 1998 to June 30, 1999

                                                                 Reported               Amount               Totals
                    Expense Categories                           Expenses              Questioned           Per Audit
 Education Personnel                                               $448,381                  $7,094            $441,287
 Other Education                                                      20,087                      0              20,087
 Vocational Personnel                                                568,064                  8,756             559,308
 Other Vocational                                                    142,305                      0             142,305
 Social Skills Personnel                                           1,245,951                 19,918           1,226,033
 Other Social Skills                                                  92,977                      0              92,977
 Food                                                                386,134                      0             386,134
 Clothing                                                            119,810                      0             119,810
 Support Service Personnel                                           330,265                  5,367             324,898
 Other Support Services                                               92,812                      0              92,812
 Medical/Dental Personnel                                            355,970                      0             355,970
 Other Medical/Dental                                                100,707                      0             100,707
 Administrative Personnel                                            522,883                  8,531             514,352
 Other Administration                                                113,685                      0             113,685
 Indirect Administration (G&A)                                       340,820                  4,699             336,121
 Facility Maintenance Personnel                                      156,932                  2,559             154,373
 Other Facility Maintenance                                          148,758                      0             148,758
 Security Personnel                                                  223,827                  3,570             220,257
 Other Security                                                        7,899                      0               7,899
 Communications                                                       47,801                      0              47,801
 Utilities and Fuel                                                  346,948                 22,511 2           324,437
 Insurance                                                            25,211                      0              25,211
 Motor Vehicle                                                        77,454                      0              77,454
 Travel and Training                                                 105,463                      0             105,463
 Contractor=s Fee                                                    307,834                      0             307,834

   Net Center Operations                                           $6,328,978                $83,005         $6,245,973
 Construction/Rehabilitation                                         $104,773                      $0          $104,773
 Equipment/Furniture                                                  145,693                       0           145,693
 GSA Vehicles Rental                                                   94,805                       0            94,805
 VST                                                                   86,345                       0            86,345

   Total Center Expenses                                           $6,760,594                $83,005         $6,677,589




2 Questioned utilities and fuel costs represent the unallowable property taxes expensed during the audit period.

                                                          -12-
